No.
VIDYA SAGAR, PH.D.,
Petitioner,
v.
STEVEN T. MNUCHIN,
SECRETARY OF THE TREASURY,
Respondent.
AFFIDAVIT
On this 23rd day of July, 2019, I, Anthony G. Lantagne, hereby certify that
this Petition for Writ of Certiorari was sent this same day via USPS Certified Mail
to the Supreme Court of the United States. I further certify that I have served by
First Class mail this same date the required copies to the counsel of record listed
below:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 23rd day of July, 2019.

tr- Dantagne
Antho:
Legal Printing, Inc.
Lanta^
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 23rd day of July, 2019, and attested
that the foregoing affidavit is true and exact to the best of his knowledge and belief.
.......... .

S

WjWr'vV'.
Richard Markell

RECEIVED
'UlMIl'1

JUL 2 6 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Additional material
from this filing is
available in the
Clerk's Office.

